          Office of Inspector General




August 16, 2005

STEPHEN M. KEARNEY
VICE PRESIDENT, PRICING AND CLASSIFICATION

SUBJECT:       Audit Report – International Customized Mail Agreements
               (Report Number MS-AR-05-001)

This report presents the results of our self-initiated, nationwide audit of the International
Customized Mail (ICM) program (Project Number 04BN001MS000). The overall
objective of our audit was to determine whether ICM agreements were profitable.

Although Postal Service management reported the ICM program, as a whole, had a
positive contribution, opportunities exist to improve the program. Managers of the ICM
program did not conduct annual reviews of individual ICM agreements to determine
whether they met or exceeded their cost coverage and contribution level goals in all
mail categories, or monitor individual agreements to ensure that mailers met the
agreement commitments. As a result, the Postal Service did not collect payments due
from guarantee clauses. These funds totaled $905,438 in additional revenue and we
will report them as such in our Semiannual Report to Congress. Management revised
the ICM program procedures to correct the deficiencies we identified during the audit.
However, we believe management should take additional steps to improve the ICM
program.

We recommended management establish the following recently implemented program
changes as written policy: require annual reviews of each ICM agreement to determine
cost coverage percentages and contribution levels, and require review of each ICM
agreement on its anniversary date to determine whether mailers met their agreed-upon
commitment levels. We also recommended management enforce the renegotiation of
the postage rates and the guarantee clauses, and establish policies and procedures to
ensure that annual reviews of ICM agreements are fully documented.

Management agreed with our recommendations and has initiatives planned and
completed addressing the issues in this report. Management did not agree with our
potential monetary benefits. Management’s comments and our evaluation of these
comments are included in this report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert Mitchell,
Director, Marketing, or me at (703) 248-2300.

/s/ John M. Seeba

John M. Seeba
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: Anita J. Bizzotto
    James P. Wade
    Michael K. Plunkett
    John F. Alepa
    Steven R. Phelps
International Customized Mail Agreements                            MS-AR-05-001



                                  TABLE OF CONTENTS

 Executive Summary                                                   I

 Part I

 Introduction                                                        1

     Background                                                      1
     Objective, Scope, and Methodology                               2
     Prior Audit Coverage                                            3

 Part II

 Audit Results                                                       5

     Annual Reviews Not Conducted                                    5
        Positive Contribution Not Provided in All Mail Categories    6
        Targeted Cost Coverage Not Always Met                        7
        Revenue and Volume Commitments Not Always Met                8
        Management’s Changes to the ICM Program                      9
     Recommendations                                                 9
     Management’s Comments                                          10
     Evaluation of Management’s Comments                            12

 Appendix A. FY 2003 Revenue, Attributable Costs, and               13
             Contributions of Mail Tendered Using ICM Agreements

 Appendix B. Revenue Commitments Not Met                            14

 Appendix C. Management’s Comments                                  15
International Customized Mail Agreements                                         MS-AR-05-001



                                  EXECUTIVE SUMMARY
 Introduction                  This report presents the results of our self-initiated,
                               nationwide audit of the International Customized Mail (ICM)
                               program. Our objective was to determine whether ICM
                               agreements were profitable.

 Results in Brief              In fiscal year 2003, Postal Service management reported
                               that the ICM program had an overall positive contribution of
                               approximately $6 million. Although the overall contribution
                               level was positive, four international mail categories had a
                               negative contribution of approximately $12 million.
                               Therefore, we believe opportunities exist to improve the
                               program.

                               Managers of the ICM program did not conduct annual
                               reviews of single- and multi-year individual ICM agreements
                               to determine whether they met or exceeded their cost
                               coverage and contribution level goals in all mail categories.
                               By not conducting annual reviews, management was unable
                               to identify whether individual ICM agreements, over their
                               terms, provided a positive or a negative contribution.

                               Program management did not consistently monitor
                               individual agreements in accordance with post-agreement
                               management procedures to ensure the mailers met the
                               agreement commitments. We identified over $905,000 in
                               additional revenue Postal Service management could have
                               collected—through enforcement of guarantee clauses—
                               from mailers who did not meet their commitments. The
                               Office of Inspector General plans to report the additional
                               revenue in our Semiannual Report to Congress.

                               During our audit, management took actions to correct
                               identified deficiencies. Specifically, management began
                               performing annual reviews to determine cost coverage
                               percentages for each ICM agreement, and began requiring
                               a review of each ICM agreement on its anniversary date to
                               determine whether mailers met their commitment levels. In
                               addition, management eliminated ICM agreements
                               exceeding two years.




                                                i
International Customized Mail Agreements                                        MS-AR-05-001




 Summary of                    We recommended management establish the following
 Recommendations               recently implemented program changes as written policy:
                               require annual reviews of each ICM agreement to determine
                               cost coverage percentages and contribution levels, and
                               require review of each ICM agreement on its anniversary
                               date to determine whether mailers met their agreed-upon
                               commitment levels. We also recommended management
                               enforce ICM agreement articles allowing for renegotiation of
                               the postage rates and guarantees, and establish policies
                               and procedures to ensure that annual reviews of ICM
                               agreements are fully documented.

 Summary of                    Management agreed with our recommendations and issued
 Management’s                  written policies and procedures for the ICM process in
 Comments                      June 2005. In addition, management plans to implement
                               the following corrective actions:

                                   •   Restrict all new ICM agreements to one-year terms.

                                   •   Review each ICM agreement on its anniversary date
                                       to determine whether mailers met their commitments.

                                   •   Enforce the guarantee clauses in ICM agreements.

                               In addition, management requested we eliminate all
                               references to ICM agreement funds from this report.
                               Management also disagreed with our potential monetary
                               benefits. Management’s comments, in their entirety, are
                               included in Appendix C of this report.

 Overall Evaluation of         Management’s comments were responsive to our
 Management’s                  recommendations and actions planned and taken address
 Comments                      the issues identified in the report.




                                                ii
International Customized Mail Agreements                                                                 MS-AR-05-001



                                              INTRODUCTION
    Background                      International Customized Mail (ICM) agreements are
                                    contracts between the Postal Service and a mailer for a
                                    period of one or more years. These agreements provide
                                    negotiated discounts within certain categories of outbound1
                                    international mail. The mailer agrees to meet a prescribed
                                    annual minimum revenue or volume requirement in return
                                    for a reduced international mail rate. According to the
                                    International Mail Manual, mailers must be capable, on an
                                    annual basis, of one of the following to qualify for negotiated
                                    discounts:

                                         •   Tendering at least one million pounds of international
                                             letter-post2 mail (excluding Global Priority Mail) or
                                             paying at least $2 million in international letter-post
                                             postage.

                                         •   Tendering at least 600 pieces of international
                                             non-letter-post mail3 (including Global Priority Mail) or
                                             paying at least $12,000 in international non-letter-
                                             post postage.

                                    The ICM agreement process consisted of:

                                         •   Mailer Qualification – identification of mailers who
                                             meet ICM qualifications and submission of a
                                             completed ICM application.

                                         •   Proposal Development and Approval – preparation of
                                             an ICM proposal of rates and services4 offered by the
                                             Postal Service, joint review, 5 and final approval of
                                             the proposal to be offered to the mailer.

                                         •   Agreement Development – drafting a formal
                                             agreement for signature, based on the mailer’s
                                             acceptance of the proposed terms.


1
  Outbound mail is mail departing the United States for other countries.
2
   International letter-post mail consists of letters, letter packages, publications, cards, etc.
3
  International non-letter-post mail consists of Air Parcel Post and Global Express Mail. For purposes of mailer
qualification, Global Priority Mail is included in this category, although it could be considered letter-post as well.
4
  Discounts through ICM agreements can range from 2.5 to 25 percent based upon potential volume or postage
commitments. Fiscal year (FY) 2003 ICM agreement discounts ranged from 12 to 15 percent.
5
  Joint review consisted of circulating ICM proposals through Marketing’s Sales, International Product Development,
and International Pricing, as well as Postal Service Headquarters’ Legal department.


                                                           1
International Customized Mail Agreements                                                                 MS-AR-05-001



                                         •   Post-Agreement Management – monitoring mailers’
                                             compliance with agreement terms and conditions and
                                             taking corrective measures as warranted.

                                    The Postal Service’s ICM program is the responsibility of
                                    the Pricing Strategy group under Marketing’s vice president
                                    for Pricing and Classification. The program was established
                                    in 1992 to identify new customers to generate contribution
                                    through customer unique pricing. The ICM program was
                                    subsequently modified to allow package mailers to also
                                    qualify for discounted pricing.

    Objective, Scope, and           The objective of our audit was to determine whether ICM
    Methodology                     agreements were profitable.6 To accomplish our objective,
                                    we reviewed the status of 53 of 195 ICM agreements7 with
                                    an open commitment period during FY 2003 that the Postal
                                    Service tracked in the Goldmine database system.8 We
                                    also reviewed volume and revenue data for 499 of these
                                    agreements and performed a detailed historical cost
                                    coverage review of one agreement. In addition, we
                                    interviewed Postal Service Headquarters personnel in
                                    Marketing, Finance, and Information Technology, as well as
                                    field personnel in Sales. We also interviewed officials from
                                    the Postal Rate Commission (PRC). We reviewed and
                                    analyzed International Cost and Revenue Analysis (ICRA)
                                    reports; Agreement Detail Reports; the Postal Service’s
                                    Purchasing Manual; and two reports issued by the PRC –
                                    Report to the Congress FY 2002 [and FY 2003]
                                    International Mail Volumes, Costs and Revenues, issued
                                    June 27, 2003, and June 30, 2004, respectively.

                                    We conducted this audit from March 2004 through
                                    August 2005, in accordance with generally accepted
                                    government auditing standards and included such tests of
                                    internal controls as were considered necessary under the
                                    circumstances. We reviewed management controls over
                                    the ICM program related to the audit objective. Specifically,

6
  For the purposes of this report, the Office of Inspector General (OIG) defines profitability as an ICM agreement with
cost coverage greater than or equal to 100 percent or contribution greater than or equal to zero.
7
  We excluded all 136 Global Package Discount agreements because the Postal Service did not individually track
them by mailer and because program management eliminated these agreements from the ICM program. We also
excluded six agreements that were for inbound international mail.
8
  The Goldmine database is a data warehouse used by Marketing to track ICM agreements.
9
  Four of the fifty-three agreements had not completed their commitment period at the time of sample selection and
review.




                                                           2
International Customized Mail Agreements                                                            MS-AR-05-001



                                  we reviewed policies and procedures governing the ICM
                                  program to ensure that management met their program
                                  objectives. We discussed our observations and conclusions
                                  with management officials and included their comments
                                  where appropriate. We did not assess the reliability of the
                                  Goldmine database as part of our audit; therefore, given this
                                  limitation, we base no conclusions or recommendations
                                  solely on the data contained in the database.

 Prior Audit Coverage             We did not identify any prior OIG audits related to the
                                  objective of this audit, although we did identify two reports
                                  issued by the PRC: Report To The Congress: The FY 2002
                                  [and FY 2003] International Mail Volumes, Costs and
                                  Revenues, issued June 27, 2003, and June 30, 2004,
                                  respectively.

                                  In the FY 2002 report, the PRC reported that ICM
                                  agreements were collectively responsible for more than
                                  $31.6 million in negative contributions. In response to a
                                  congressional inquiry, the Postal Service reviewed its
                                  original submission to the PRC and identified the erroneous
                                  reporting of inbound mail. The Postal Service submitted
                                  revised data, reducing the negative contributions from
                                  $31.6 million to $10 million. The Postal Service’s positive
                                  contributions totaled $24 million. Overall, the contribution
                                  for ICM agreements in FY 2002 was approximately
                                  $14 million.10

                                  In the FY 2003 report, the PRC reported ICM agreements
                                  had an overall positive contribution of approximately
                                  $6 million despite over $12 million in negative contribution in
                                  four mail categories.11 The PRC also reported ICM
                                  agreements should not be cross-subsidized by domestic
                                  mailers and other (outbound) international mailers. The
                                  PRC recommended that the Postal Service continue to
                                  reassess each ICM agreement annually and include
                                  sufficient rate escalation clauses in contracts with terms
                                  longer than one year.

                                  During our audit, ICM program management told the OIG
                                  they have taken steps to ensure the PRC is provided with

10
   The PRC and the Postal Service both used data derived from the FY 2002 International Cost and Revenue Analysis
Report – PRC version.
11
   Negative mail categories in FY 2003 included economy letter packages, air letter and letter packages, air parcel
post, and global direct outbound.


                                                        3
International Customized Mail Agreements                                           MS-AR-05-001



                               data showing the true financial status of ICM agreements
                               while preserving the integrity of proprietary cost information.
                               Specifically, program management told the OIG they had
                               revised product categories to better fit standard product
                               names and were in the process of developing more specific
                               costing information directly related to ICM agreements.




                                                4
International Customized Mail Agreements                                                           MS-AR-05-001



                                           AUDIT RESULTS
                                  Although Postal Service management reported the ICM
                                  program, as a whole, had a positive contribution for
                                  FY 2003, opportunities existed to improve the program and
                                  increase cost coverage and contribution levels. Specifically,
                                  program managers did not adequately oversee the ICM
                                  agreements by conducting annual reviews of individual
                                  agreements after they were implemented to determine
                                  whether program cost coverage goals and commitments
                                  were met. As a result, over $905,000 in additional revenue
                                  could have been collected from mailers who did not meet
                                  their commitments.

                                  During our audit, management took actions to correct
                                  deficiencies we identified. Specifically, management began
                                  performing annual reviews to determine cost coverage
                                  percentages for each ICM agreement, and changed ICM
                                  program procedures to include a review of each ICM
                                  agreement on its anniversary date, to determine whether
                                  mailers met their commitment levels. In addition,
                                  management eliminated the use of ICM agreements
                                  exceeding two years.

                                  We believe these changes will allow the Postal Service to
                                  more quickly identify those ICM agreements not meeting
                                  program cost coverage goals and revenue and volume
                                  commitments. This will allow management to make timely
                                  business decisions concerning the impact of individual ICM
                                  agreements on the overall contribution level of the ICM
                                  program.

 Annual Reviews Not                Managers of the ICM program did not conduct annual
 Conducted                         reviews of individual ICM agreements to determine whether
                                   they met or exceeded their cost coverage or contribution
                                   level goals in all mail categories. Management stated this
                                   occurred because they:

                                      •    Could not decide which of two ICRA reports to use to
                                           measure costs because of timing differences between
                                           the reports.12




12
   There are two versions of the ICRA report: a PRC version released each March and a Postal Service version
released each June.
                                                          5
International Customized Mail Agreements                                                             MS-AR-05-001




                                       •   Focused on customer retention.

                                       •   Used total revenue as the metric to measure success.

                                  However, post-agreement management procedures required
                                  program management to monitor ICM agreements for
                                  compliance with agreed-upon terms and conditions in order
                                  to make changes when warranted.13 By not conducting
                                  annual reviews, management did not identify whether
                                  individual ICM agreements provided a positive or a negative
                                  contribution.

                                  We identified 53 active, outbound, non-Global Package
                                  Discount ICM agreements in FY 2003, 20 of which were
                                  1-year agreements and 33 of which had 2 to 5-year terms.
                                  Program managers prepared cost coverage and contribution
                                  estimates during the proposal phase of the ICM agreement
                                  process, but did not review the 33 multi-year agreements
                                  after the first year to determine whether customers
                                  maintained contribution goals, even though data was
                                  available to calculate contribution and cost coverage
                                  percentages.

 Positive Contribution    Overall, the ICM program had a positive contribution of
 Not Provided in All Mail approximately $6 million in FY 2003. However, four of
 Categories               seven international mail categories accounted for over
                          $12 million in negative contributions for mail tendered under
                          ICM agreements. See Appendix A for details.

                                  Program managers identified deficiencies in the average
                                  unit cost calculation and informed us that one of the
                                  four categories’14 average unit cost was not correct because
                                  it did not take into account the different weight
                                  characteristics among package types. Management
                                  further explained that the ICM agreement-specific unit cost
                                  was less than the average unit cost because the ICM
                                  agreement-specific unit cost did not include costs associated
                                  with retail operations.




13
   Postal Service personnel told the OIG that the monitoring procedures, though unwritten, were requirements under
the ICM process’ Post-Agreement Management phase.
14
   The mail category to which Postal Service management referred was economy–letter packages.
                                                           6
International Customized Mail Agreements                                                              MS-AR-05-001




                                   Although program managers identified deficiencies in the
                                   methodology used to calculate ICM agreement costs, they
                                   said the current calculation method was the only method
                                   available. Further, although ICM agreement-specific unit
                                   costs were less than the average unit costs, the
                                   four categories of international mail totaling $12 million in
                                   negative contribution indicated that not all individual ICM
                                   agreements covered their costs.

 Targeted Cost                     During our audit, we selected one active ICM agreement
 Coverage Not Always               with a $10 million revenue commitment for a review of
 Met                               historical cost coverage for the period of January 1, 2001,
                                   through December 31, 2004, to determine whether the
                                   agreement met cost coverage goals. This ICM agreement
                                   involved two international mail categories: International
                                   Priority Airmail and International Surface Air Lift Mail.

                                   As shown in the chart below, the cost coverage percentage
                                   for International Priority Airmail declined 30 percent from
                                   FYs 2001 to 2004. Its targeted cost coverage was
                                   120 percent.15 Program managers attributed the decline in
                                   the cost coverage of this agreement to the combination of
                                   static postage rates and cost increases in the category of
                                   International Priority Airmail.

                                   Selected ICM Agreement – Cost Coverage Percentage Analysis16

                                                                       FY 2001    FY 2002     FY 2003     FY 200417
                                    International Priority Airmail      133%       111%        108%         103%
                                    International Surface Air Lift      123%       122%        123%         118%
                                    Mail

                                   Had management conducted annual reviews of this ICM
                                   agreement, they could have identified the lost cost coverage
                                   percentage and modified the ICM agreement.18

                                   During our review of seven other ICM agreements, we
                                   identified five agreements containing a clause designed to

15
   The International Business Unit originally established an internal directive that no ICM agreement shall have an
overall cost coverage below 120 percent without a compelling business case. However, the Pricing Strategy group
later changed the internal directive to reflect an overall cost coverage of 110 percent to 114 percent due to rising
costs and static postage rates for certain mail classes, which made the earlier goal impractical.
16
   Source: Postal Service International Pricing.
17
   Based on Goldmine data for January and February 2004, the most current data available at the time of our review.
18
   ICM agreements contain a clause designed to allow the Postal Service to modify negotiated ICM rates if costs for
qualifying mail increase over 5 percent.
                                                              7
International Customized Mail Agreements                                                            MS-AR-05-001



                                  allow the Postal Service to raise postage rates if costs for
                                  qualifying mail increased over 5 percent. However, program
                                  managers did not exercise this clause and took no action
                                  when the qualifying mail costs increased over 5 percent.
                                  See Appendix B for additional details.

 Revenue and Volume               Management developed ICM agreements to grow revenue
 Commitments Not                  and provide a positive contribution for the Postal Service. Of
 Always Met                       4919 active FY 2003 ICM agreements reviewed, 12 achieved
                                  revenue or volume increases above the commitment figures.
                                  However, 37 of the 49 (76 percent) did not meet their
                                  agreed-upon revenue or volume commitments. Had
                                  program managers consistently monitored individual
                                  agreements for compliance with ICM agreement clauses,
                                  program managers could have made timely business
                                  decisions resulting in over $905,000 in additional revenue
                                  during commitment periods falling within FY 2003.

                                  Program managers stated their focus was on generating
                                  revenue rather than conducting regularly scheduled annual
                                  reviews of individual agreements to determine whether
                                  customers were on target to meet the revenue or volume
                                  terms of their agreements.

                                  Of the 12 ICM agreements that achieved revenue or volume
                                  increases:

                                       •   Seven revenue only agreements for $89.4 million
                                           exceeded their commitments by $22.2 million, for a
                                           total of $111.6 million.

                                       •   Five volume only agreements exceeded their
                                           commitments by 22 million pieces mailed.

                                  Of the 37 ICM agreements that did not meet agreed-upon
                                  commitments:

                                       •   Seven revenue only agreements did not meet their
                                           commitments by $17.8 million out of a total of
                                           $73 million.

                                       •   Eighteen volume only agreements did not meet their
                                           commitments by a total of 14 million pieces mailed.

19
  Four of the fifty-three agreements had not completed their commitment period at the time of sample selection and
review. Therefore, we could not determine whether these agreements met their agreed-upon FY 2003 revenue or
volume commitments.
                                                         8
International Customized Mail Agreements                                                            MS-AR-05-001




                                       •   Twelve agreements20 did not meet their revenue
                                           and/or volume commitments.

                                  Five of the seven ICM agreements that did not meet
                                  revenue commitments contained guarantee clauses,
                                  enabling the Postal Service to collect an additional $905,438
                                  as revenue in unearned discounts from mailers who did not
                                  meet the terms of their agreements. However, program
                                  managers did not exercise this clause and took no action
                                  when the mailers did not meet their commitments. See
                                  Appendix B for additional details.

 Management‘s                     During our audit, management took actions to correct
 Changes to the ICM               identified deficiencies. Beginning in July 2004, management
 Program                          began performing annual cost reviews. Although program
                                  managers recorded a business case decision for each open
                                  ICM agreement, they did not always document the bases for
                                  each business case decision reached. Management also
                                  implemented ICM program procedures requiring a review of
                                  each ICM agreement on its anniversary date to determine
                                  whether mailers met their agreed-upon commitment levels.
                                  Lastly, management eliminated the use of ICM agreements
                                  with terms exceeding two years.

                                  Although management had taken actions to identify whether
                                  individual ICM agreements would provide positive
                                  contribution to the Postal Service on an annual basis, we
                                  believe management should incorporate these recent
                                  changes into official policy.

 Recommendations                  We recommend the vice president, Pricing and
                                  Classification:

                                       1. Incorporate into policy the recently implemented
                                          program changes to:

                                               •    Perform an annual review of each ICM
                                                    agreement to determine cost coverage
                                                    percentages and contribution levels.



20
  Terms of 11 of these agreements contained an annual minimum revenue or volume requirement for which the
mailer agreed to meet either one term or the other during the commitment period, while the terms for one agreement
required the mailer to meet an annual minimum revenue and volume commitment.
                                                           9
International Customized Mail Agreements                                          MS-AR-05-001




                                           •   Review each ICM agreement on its
                                               anniversary date to determine whether mailers
                                               met their agreed-upon commitment levels.

                                  2. Direct program managers to enforce the ICM
                                     agreement Articles allowing for renegotiation of the
                                     postage rates in ICM agreements in order to adjust
                                     postage rates affected by at least a 5 percent
                                     increase in qualifying mail costs, unless a written
                                     business case is made not to take action.

                                  3. Direct program managers to enforce guarantee
                                     clauses to assess and collect payments from mailers
                                     not in compliance with ICM agreement terms in order
                                     to recover lost discounts, unless a written business
                                     case is made not to take action.

                                  4. Establish policies and procedures to ensure that
                                     annual reviews of ICM agreements are documented
                                     to establish the business case for actions taken or not
                                     taken concerning cost coverage and contribution
                                     levels.

 Management’s                 Postal Service management agreed with all four of our
 Comments                     recommendations and issued written policies and
                              procedures for the ICM process in June 2005. In addition,
                              management has restricted all new ICM agreements to one-
                              year terms, which necessitates the annual review of rates
                              and cost coverage, as well as adjustments for the effects of
                              cost increases. Further, management stated it reviews each
                              ICM agreement before its anniversary date to determine if
                              the mailer has met the agreed-upon commitment and takes
                              appropriate action to enforce the guarantee clauses. Finally,
                              management requested we eliminate all references to ICM
                              agreement from this report.

                              However, Postal Service management offered alternative
                              explanations for mailers who did not meet revenue
                              commitments in response to our draft audit report.

                              In response to our finding that they did not conduct annual
                              reviews of ICM agreements, management stated they
                              review ICM proposals and agreements annually as part of
                              the normal vetting process. Specifically, management
                              stated they review the customized rates for Postal Service
                              products annually rather than review individual ICM
                                                  10
International Customized Mail Agreements                                         MS-AR-05-001



                              agreements. Management added they were constantly
                              aware of the contribution levels of the customized rates in
                              comparison to the individual products.

                              In response to our finding that not all mail categories
                              provided a positive contribution, Postal Service management
                              stated that it appeared the negative contribution the PRC
                              reported was due to inappropriate allocation of costs to
                              Postal Service products with customized rates.
                              Management further explained that the negative contribution
                              was not a function of the customized rates themselves and
                              that the Postal Service had corrected the cost method for
                              data sent to the PRC, eliminating this error.

                              In response to our finding they did not always meet targeted
                              cost coverage, Postal Service management never intended
                              the cost coverage information in the executive summary –
                              which accompanied each ICM proposal and agreement – as
                              a target. Management also stated it took corrective action
                              when the cost coverage declined.

                              In response to our finding they did not always meet revenue
                              and volume commitments, Postal Service management
                              stated its review process identified and enabled collection of
                              the required penalties. Specifically, management did not
                              agree with our monetary impact, stating that the Postal
                              Service had either collected all postage due or determined
                              that the commitment had been met in all categories of mail.

                              Management stated its position on each of the
                              five agreements (outlined in Appendix B) where OIG claimed
                              mailer guarantee funds were due the Postal Service, as
                              follows:

                                  •   One agreement’s volume did not include revenue
                                      from Global Bulk Economy and Global Direct-Canada
                                      Admail, which brought the total above the
                                      commitment level for the period.

                                  •   One agreement had no mail that qualified under the
                                      penalty clause.




                                               11
International Customized Mail Agreements                                         MS-AR-05-001




                                  •   Three agreements were terminated prior to the
                                      expiration date, with two mailers having met their
                                      “annualized” commitments and one mailer having
                                      paid an agreed-upon amount of the penalty due
                                      based on reconciled volumes and recognized market
                                      conditions.

 Evaluation of                Management’s comments are responsive to the
 Management’s                 recommendations and actions planned and taken address
 Comments                     the issues identified in the finding. However, the OIG
                              disagrees with Postal Service management’s practices for
                              identifying and collecting lost discounts.

                              Specifically, the OIG disagrees with management’s
                              assessment that one agreement’s revenue did not contain
                              all mail types. Management stated this agreement, as
                              reported, did not include revenue from Global Bulk Economy
                              and Global Direct-Canada Admail. The OIG obtained
                              supporting documentation from Postal Service management,
                              which did contain these mail types.

                              We take exception to allowing mailers to terminate their
                              agreements prior to their expiration dates and prorating their
                              previously agreed-upon commitment levels by “annualizing”
                              the mailer’s annual obligation.

                              Mailers who agree to a higher commitment level and
                              terminate their agreements receive deeper discounts than
                              those mailers who commit to and meet a lower level, even
                              though both mailers may have mailed an equal amount in
                              revenue or volume.




                                               12
International Customized Mail Agreements                                                      MS-AR-05-001




                                     APPENDIX A
                        FY 2003 REVENUE, ATTRIBUTABLE COSTS,
                        AND CONTRIBUTIONS OF MAIL TENDERED
                                USING ICM AGREEMENTS
                                                           Attributable                   Cost
                                                Revenue       Costs       Contribution Coverage
                                                 $(000)       $(000)        $(000)     Percentage
                   Economy
                    Letter Packages               $1,765        $8,157        $(6,392)       21.6%
                    International Surface Air
                      Lift                        65,519        55,702           9,817      117.6%
                   Air
                    Letters and Letter
                      Packages                     2,245          4,812        (2,567)       46.7%
                    International Priority
                      Airmail                     65,788        57,820           7,968      113.8%
                    Express                        5,466         5,251             215      104.1%
                    Air Parcel Post                3,603         6,732         (3,129)       53.5%
                   Initiatives
                    Global Direct Outbound         1,064          1,065             (1)      99.9%
                   Total                        $145,450      $139,539         $5,911       104.2%

                   Source: PRC’s Report to the Congress FY 2002 [and FY 2003] International Mail
                   Volumes, Costs and Revenues, issued June 27, 2003, and June 30, 2004,
                   respectively,with data provided by the Postal Service.




                                                    13
            International Customized Mail Agreements                                                                                                             MS-AR-05-001



                                                                 APPENDIX B
                                                        REVENUE COMMITMENTS NOT MET

                                                                              Percent                                                                                Mailer
                                                            Revenue          Revenue                                                                 Mailer         Guarantee
                    Revenue              Revenue              Not               Not                                Cost                Cost        Guarantee          $ Due
   ICM             Commitment            Collected          Collected        Collected       Cancellation      Renegotiation         Increase      Unearned          Postal
Agreement             ($)21                ($)22              ($)23             (%)           Clause24           Clause25              >5%26       Discount27       Service28

       1              $10,000,000         $5,428,155         $4,571,845       45.72%              No                  Yes               Yes            Yes             $336,257

       2                 1,000,000             35,464           964,536         96.45             No                  Yes               No              No                          0

                                                                                                                                                                               29
       3                 1,000,000             37,233           962,767         96.28             No                  Yes               Yes            Yes                          0

       4                   950,000            543,977           406,023         42.74             No                  No                Yes             No                          0

                                                                                                                                                                      30
       5               10,000,000          7,787,068          2,212,932         22.13             Yes                 Yes               Yes             Yes                299,979

       6               10,000,000          8,488,419          1,511,581         15.12             Yes                 Yes               Yes            Yes                 199,728

       7               25,000,000         23,343,257          1,656,743         6.63              Yes                 Yes               Yes            Yes                  69,474

     TOTALS           $57,950,000        $45,663,573       $12,286,427        21.20%                                                                                   $905,438


21
   Revenue commitment is the dollar amount of postage the mailer agreed to pay each calendar year during the term of the agreement.
22
   Revenue collected is the dollar amount of postage the mailer paid during the commitment period falling within FY 2003.
23
   Revenue not collected represents the difference between the revenue commitment and the revenue collected during the commitment period falling within FY 2003.
24
   A cancellation clause allows the Postal Service or the mailer to cancel the agreement with six months notice and with no penalty.
25
   A cost renegotiation clause allows the Postal Service to raise postage rates in an agreement if costs for qualifying mail increase over 5 percent during the term of the
agreement.
26
   This column is to indicate whether costs for qualifying mail increased over 5 percent during FY 2003.
27
   A guarantee clause between the mailer and the Postal Service provides for the Postal Service to be reimbursed for any rate discount not earned by the mailer.
28
   This is the unearned discount the mailer should have paid during the commitment period falling within FY 2003.
29
   This mailer had no mailings applicable to the guarantee clause; therefore, no reimbursement is due the Postal Service.
30
   The mailer paid the Postal Service $220,285.39 on January 13, 2005. This leaves a remaining balance of approximately $79,694.

                                                                                        14
International Customized Mail Agreements               MS-AR-05-001



                   APPENDIX C. MANAGEMENT’S COMMENTS




                                           15
International Customized Mail Agreements        MS-AR-05-001




                                           16
International Customized Mail Agreements        MS-AR-05-001




                                           17
International Customized Mail Agreements        MS-AR-05-001




                                           18
International Customized Mail Agreements        MS-AR-05-001




                                           19
International Customized Mail Agreements        MS-AR-05-001




                                           20
International Customized Mail Agreements        MS-AR-05-001




                                           21
International Customized Mail Agreements        MS-AR-05-001




                                           22
